HHS/OIG-Audit-"Review of Overpayment Collections by Aid to Families
With Dependent Children (AFDC) by Kansas Department of Social and Rehabilitation
Services (DSRS)," (A-07-02-03011)
Department of Health and Human
Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections by Aid to Families
With Dependent Children (AFDC) by Kansas Department of Social and Rehabilitation
Services (DSRS)," (A-07-02-03011)
January 8, 2002
Complete Text of Report is available in PDF format (710
KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of overpayment collections made
for the former Aid to Families with Dependent Children (AFDC) program by the
Kansas Department of Social and Rehabilitation Services (DSRS).  The objective
of our review was to determine whether DSRS remitted the Federal share of AFDC
overpayment collections to the Federal government after the program was repealed.
During the period October 1, 1996 through March 31, 2001, the DSRS remitted
the Federal share of AFDC overpayments totaling $2,102,779 to the U.S. Department
of Health and Human Services - Administration for Children and Families as required.
However, DSRS did not begin submitting quarterly payments for the above period
until December 26, 2000. We recommended DSRS continue making quarterly
payments for the Federal share of AFDC overpayments as required.  The DSRS
agreed with our findings and recommendation.